<html>
<title> - MODERNIZING FEDERAL TELEWORK MOVING FORWARD USING LESSONS LEARNED DURING THE COVID-19 PANDEMIC</title>
<body><pre>[Senate Hearing 116-402]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 116-402

                  MODERNIZING FEDERAL TELEWORK: MOVING
     FORWARD USING THE LESSONS LEARNED DURING THE COVID	19 PANDEMIC

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
               REGULATORY AFFAIRS AND FEDERAL MANAGEMENT

                                 OF THE

                              COMMITTEE ON
                         HOMELAND SECURITY AND
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           NOVEMBER 18, 2020

                               __________

                  Available via http://www.govinfo.gov

       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs
                        
                        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                             __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
42-886PDF                    WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------


        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                    RON JOHNSON, Wisconsin, Chairman
ROB PORTMAN, Ohio                    GARY C. PETERS, Michigan
RAND PAUL, Kentucky                  THOMAS R. CARPER, Delaware
JAMES LANKFORD, Oklahoma             MAGGIE HASSAN, New Hampshire
MITT ROMNEY, Utah                    KAMALA D. HARRIS, California
RICK SCOTT, Florida                  KYRSTEN SINEMA, Arizona
MICHAEL B. ENZI, Wyoming             JACKY ROSEN, Nevada
JOSH HAWLEY, Missouri

                Gabrielle D'Adamo Singer, Staff Director
               David M. Weinberg, Minority Staff Director
               Zachary I. Schram, Minority Chief Counsel
                     Laura W. Kilbride, Chief Clerk
                     Thomas J. Spino, Hearing Clerk


       SUBCOMMITTEE ON REGULATORY AFFAIRS AND FEDERAL MANAGEMENT

                   JAMES LANKFORD, Oklahoma, Chairman
ROB PORTMAN, Ohio                    KYRSTEN SINEMA, Arizona
MITT ROMNEY, Utah                    THOMAS R. CARPER, Delaware
RICK SCOTT, Florida                  JACKY ROSEN, Nevada
MICHAEL B. ENZI, Wyoming
                     James D. Mann, Staff Director
                Eric A. Bursch, Minority Staff Director
         Mallory B. Nersesian, Subcommittee and Document Clerk
                            
                            
                            C O N T E N T S

                                 ------                                
Opening statement:
                                                                   Page
    Senator Lankford.............................................     1
    Senator Sinema...............................................     2
    Senator Carper...............................................    10
    Senator Rosen................................................    24
Prepared statement:
    Senator Lankford.............................................    31
    Senator Sinema...............................................    37

                               WITNESSES
                      Wednesday, November 18, 2020

Michelle Rosenberg, Acting Director, Strategic Issue Team, 
  Government Accountability Office...............................     5
Keith Washington, Deputy Assistant Secretary for Administration, 
  U.S. Department of Transportation..............................     6
Sydney T. Rose, Chief Human Capital Officer, Office of Human 
  Resources, Office of the Assistant Secretary for Administration 
  and Management, U.S. Department of Labor.......................     8
Jim Borland, Assistant Deputy Commissioner for Systems and Deputy 
  Chief Information Officer for IT Operations, Social Security 
  Administration.................................................     9

                     Alphabetical List of Witnesses

Borland, Jim:
    Testimony....................................................     9
    Prepared statement...........................................    61
Rose, Sydney T.:
    Testimony....................................................     8
    Prepared statement...........................................    57
Rosenberg, Michelle:
    Testimony....................................................     5
    Prepared statement...........................................    39
Washington, Keith:
    Testimony....................................................     6
    Prepared statement...........................................    52

                                APPENDIX

Statement of the American Federation of Government Employees, 
  AFL-CIO........................................................    66
Responses to post-hearing questions for the Record:
    Mr. Washington...............................................    75
    Mr. Borland..................................................    78

 
                      MODERNIZING FEDERAL TELEWORK
   MOVING FORWARD USING LESSONS LEARNED DURING THE COVID-19 PANDEMIC

                              ----------                              


                      WEDNESDAY, NOVEMBER 18, 2020

                                 U.S. Senate,      
                        Subcommittee on Regulatory,        
                      Affairs and Federal Management,      
                    of the Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 3:11 p.m., via 
Webex and in room 342, Dirksen Senate Office Building, Hon. 
James Lankford, Chairman of the Subcommittee, presiding.
    Present: Senators Lankford, Scott, Sinema, Carper, and 
Rosen.

            OPENING STATEMENT OF SENATOR LANKFORD\1\

    Senator Lankford. Welcome, everybody. Thanks for being 
here. This is a hearing for the Regulatory Affairs and Federal 
Management Subcommittee (RAFM) titled ``Modernizing Federal 
Telework: Moving Forward Using Lessons Learned during the 
Coronavirus Disease 2019 (COVID-19) Pandemic.'' We should at 
least have something good come out of this pandemic.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Lankford appears in the 
Appendix on page 31.
---------------------------------------------------------------------------
    This hearing is really focused on what we can gain, what 
has already been learned, what gaps are still there, and what 
we can do to better improve the process. It has been a decade 
since the last significant piece of Federal telework 
legislation, the Telework Enhancement Act of 2010. It set the 
baseline standard for Federal agencies to follow for telework.
    Over the last 10 years, we have seen great advances in 
technology, workforce expectations, and an increase in 
cybersecurity threats. So many changes in the world, it makes 
sense to take a close look at the current telework policies and 
strategies in the Federal workforce. The current pandemic has 
acted as a magnifying glass for telework policy improvement.
    This Committee held a hearing in July with a panel of 
private industry witnesses. During that hearing, we were able 
to gather valuable information concerning what private 
employers have done to support their remote workforce. We were 
also able to draw on some lessons learned that could help the 
Federal workforce recalibrate its telework strategies and 
policies.
    During that hearing, we also gained some insight into what 
the current private workforce is demanding. This, coupled with 
all the environmental challenges we now face, may help us 
create remote work policies that keep the Federal Government 
competitive in the hiring of highly qualified individuals.
    Since early March, Federal agencies have been forced to 
deal with complex problems like cybersecurity, remote 
performance management, and employee engagement on a massive 
scale. The pandemic has been extremely disruptive to all of our 
lives, and I am hopeful we can use these challenging times to 
shine a light on telework processes and find long-term 
solutions that provide real value for Federal agencies and 
their employees.
    As I stated in the first hearing, there are some very 
important telework questions that I believe need clarity on in 
order for us to chart a clear path forward for the Federal 
workforce. For example, how do we best prepare employees so 
that during a future disaster or pandemic they can seamlessly 
transition into a Federal workforce policy? How do we 
effectively train managers to stay engaged and to monitor 
performance of remote workers? What tasks could be permanently 
teleworked, which would open up opportunities to hire anyone, 
anywhere in the country?
    I want to make sure that cybersecurity threats and 
information technology (IT) infrastructure improvements are at 
the forefront of future telework legislation conversations.
    Today, I look forward to hearing from the front line. We 
have heard anecdotal evidence of agencies overcoming the 
challenges of a mostly remote workforce, but today we have the 
opportunity to hear from the source. I hope that we can take 
what we learn in today's hearing, use it to create a more 
efficient, flexible, and competitive Federal workforce.
    I do want to thank this panel for taking the time away from 
their very busy schedules. You have all done written statements 
in advance and you have been a part of this for your oral 
testimony as well. We really appreciate the opportunity to be 
able to pick your brain, be able to hear about what the 
agencies have done, what experience that you have gained in the 
process.
    For everyone watching this hearing, this is what we are 
affectionately calling a hybrid hearing. We have some 
individuals that are here in the room, though it is very few. 
Four of our witnesses that will testify in this hearing, two of 
them are live, two of them are remote. Most of the individuals 
that are here will be remote for this hearing, and everyone is 
very well spaced during this hearing as well, to be able to 
make sure that we maintain social distancing in the time 
period. So we are being attendant to all of those basic 
elements through this. But I do want us to be able to get this 
information out. It is important that we get it on the record 
as well.
    With that I would like to recognize Ranking Member Sinema 
for her opening remarks, and she is joining us remotely.

             OPENING STATEMENT OF SENATOR SINEMA\1\

    Senator Sinema. Thank you so much, Mr. Chairman, for 
holding this important hearing, and as this is likely our last 
Subcommittee hearing of the year I want to thank you for your 
leadership throughout this Congress. It has been an absolute 
pleasure to work with you.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Sinema appears in the 
Appendix on page 37.
---------------------------------------------------------------------------
    I do want to submit a statement for the record from the 
American Federation of Government Employees.\1\
---------------------------------------------------------------------------
    \1\ The statement submitted by Senator Sinema appear in the 
Appendix on page 66.
---------------------------------------------------------------------------
    I appreciate all of our witnesses joining us today. I had 
hoped that all of our witnesses would agree to join the hearing 
remotely, because I think that would be a great message to show 
our Committee and the country as our COVID numbers are 
increasing across the country, and demonstrate our ability to 
work remotely and to adapt to this changing world.
    Our hearing today is important for a number of reasons, but 
a key one is to dispel the myth that telework automatically 
means decreased productivity. My office has been working 
completely virtual since March, and there has been no 
disruption in our work. Every day our team is working to help 
Arizonans, and, in fact, we have found that telework can 
increase productivity, improve employee morale, and allow 
workers the flexibility they need to care for their kids and 
their loved ones.
    So the key is to develop an effective telework strategy so 
that workers have the tools they need and that everyone in the 
organization understands the policies and goals.
    I look forward to our conversation today on those topics, 
learning more about the problems and challenges you all have 
overcome, and what operational challenges remain. It is also 
important to note the risks of returning our Federal workforce 
to their offices too soon. According to a recent Government 
Executive article, more than 100,000 Federal employees 
nationwide have tested positive for COVID. Many States have 
seen alarming rises in COVID cases recently. This week in 
Arizona, the percent of positive COVID tests has reached its 
highest level in 3 months, and the number of Arizonans 
hospitalized for COVID at the beginning of this week was 70 
percent higher than it was just on November 1.
    While most Federal employees continue to work from home, 
there are certainly some positions, such as our agents and 
officers at the border, our postal workers, and Veterans 
Affairs (VA) staff who cannot do so. So to protect those 
individuals, it is critical that we allow maximum telework to 
minimize the number of people in Federal buildings.
    With that, Mr. Chairman, I yield back, and I look forward 
to hearing from our witnesses today.
    Senator Lankford. Thank you.
    At this time I want to be able to proceed with testimony 
from our witnesses. Let me do a quick introduction of the four 
of them.
    Joining us remotely is Michelle Rosenberg. She is the 
Acting Director of U.S. Government Accountability Office 
(GAO's) Strategic Issues Team, where she oversees the agency's 
work on Federal human capital issues. Prior to joining the 
Strategic Issues Team she served for over 20 years on GAO's 
Health Care Team. Throughout her tenure in GAO, Ms. Rosenberg 
has been recognized with numerous GAO-wide and Health Care Team 
awards, including two Meritorious Service Awards and a 
Distinguished Service Award. She will be testifying first and 
will be joining us remotely.
    Keith Washington is here. He is the Deputy Assistant 
Secretary for Administration at the U.S. Department of 
Transportation (DOT). He has been with the Department since 
1991. In his current position, he provides leadership and 
oversight in the areas of human resources (HR), security, audit 
relations, acquisitions and grants, transportation and 
facilities, and space management. Maybe you could lead National 
Aeronautics and Space Administration (NASA) for us next, since 
we need a new director for NASA, since you are good at space 
management. What do you think? We will talk about that.
    Prior to this role, he was the Director in the departmental 
Office of Human Resource Management.
    Sydney Rose is also here. She is the Chief Human Capital 
Officer (CHCO), at the U.S. Department of Labor (DOL). She has 
over 40 years of Federal service, all of which have been spent 
in human resources-related occupations. Ms. Rose is responsible 
for all the Department's human capital policies and programs 
and is key advisor to departmental leadership on employee 
engagement efforts.
    Ms. Rose joined the U.S. Department of Labor in 2011, and 
has previously served at the Bureau of Labor Statistics (BLS), 
U.S. Patent and Trademark Office, and the Office of Personnel 
Management (OPM). Thank you for being here.
    Also joining us remotely is Jim Borland. He is the 
Assistant Deputy Commissioner and Deputy Chief Information 
Officer (CIO) for IT Operations at the Social Security 
Administration (SSA). He leads the day-to-day management of the 
agency's computing infrastructure. He previously served as the 
Acting Deputy Commissioner for Communications and the Assistant 
Deputy Commissioner for Social Security's Office of Disability 
Adjudication and Review.
    Prior to joining Social Security Administration, he served 
in various analytical, technical, and leadership positions over 
15 years with the U.S. Departments of Agriculture and Education 
here in Washington, DC.
    I want to thank all four of you for your preparation for 
being here.
    It is the custom of this Subcommittee to swear in all 
witnesses that appear before us. So if I would ask you all to 
please stand and raise your right hand. Yes, even remotely. 
Sorry about that.
    Do you swear that the testimony you will give before this 
Subcommittee will be the truth, the whole truth, and nothing 
but the truth, so help you, God?
    Ms. Rosenberg. I do.
    Mr. Washington. I do.
    Ms. Rose. I do.
    Mr. Borland. I do.
    Senator Lankford. Thank you. Let the record reflect that 
all witnesses answered in the affirmative.
    We are using a timing system, with even the folks that are 
joining us remotely should be able to see the timer as well, as 
you go through the process. We will try to stick fairly close 
to that, to be able to make sure we give as much time as 
possible for questions and for conversations as we go through 
this in the process.
    So with that I would recognize Ms. Rosenberg for your 
opening statement.

TESTIMONY OF MICHELLE ROSENBERG,\1\ ACTING DIRECTOR, STRATEGIC 
         ISSUES TEAM, GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. Rosenberg. Chairman Lankford, Ranking Member Sinema, 
and Members of the Subcommittee, I am pleased to be here today 
to discuss Federal telework.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Rosenberg appears in the appendix 
on page 39.
---------------------------------------------------------------------------
    Telework offers benefits to both Federal agencies and the 
Federal workforce. It can help with recruitment and retention 
of employees, reduce the need for costly office space, and as 
the Ranking Member mentioned, provide an opportunity to better 
balance work and family demands. Telework is also a tool that 
agencies can and have used to accomplish their mission during 
periods of disruption. As you know, during the current COVID-19 
pandemic, use of telework has allowed Federal employees to work 
remotely in order to sustain agency operations and serve the 
American public.
    GAO previously identified key practices in telework-related 
literature and guidelines that Federal agencies should 
implement as part of a successful telework program. Regular 
attention to the key practices can help to foster program 
growth and remove barriers to telework participation.
    My written statement lists all of the key practices we 
identified. This afternoon I will highlight three.
    First, telework agreements. To facilitate telework, 
agencies should have telework agreements that outline the 
agreed-upon work arrangements between agency managers and 
teleworking employees. The Telework Enhancement Act of 2010 
requires agencies to have such written agreements. However, in 
2017, we reported that selected agencies did not require 
regular reviews, or document the reviews of telework 
agreements.
    Given the likelihood of changes in work responsibility and 
employee schedules over time, it is important for agencies to 
regularly review their telework agreements to ensure that they 
reflect and support their current business needs. In addition, 
if telework agreements are not up to date, agencies may be 
using inaccurate telework data when making decisions such as 
space planning and technology investments.
    The second key practice I will highlight is training, 
something Senator Lankford mentioned. Telework involves a 
different way of working as well as supervising employees. As 
such, agencies are required to provide training to eligible 
employees and to managers of teleworkers. Such training should 
cover agencies' telework policies and provide an orientation to 
telework, and focus on telework program activities, including 
the IT applications used while teleworking and performance 
management.
    Our 2017 review of selected agencies' telework programs 
found that managers were generally not required to complete 
telework training before approving staff's telework agreements. 
As a result, managers may have been approving or denying 
requests to telework before they fully understood the agency's 
telework policies and goals.
    The third key practice I will mention is program 
evaluation. It is important for agencies to develop program 
evaluation tools. This should include a tracking system that 
can help to accurately determine the status of telework 
implementation at the agencies. Agencies should use the 
evaluation tools to identify problems or issues with the 
program, and their progress in achieving program goals. 
Agencies should then develop an action plan to guide any needed 
changes.
    Assessments of the costs and benefits, including cost 
savings, of agencies' telework programs can help decisionmakers 
in determining the overall effects and value of telework. 
However, our past work found that selected agencies have little 
data to support the benefits or costs associated with their 
telework programs. OPM has indicated that agencies have 
improved in their ability to track cost savings, but not all 
agencies are reporting cost savings information in response to 
OPM's annual telework data call.
    In conclusion, the telework key practices GAO has 
identified, several of which are required by statute, provide a 
roadmap for Federal agencies to successfully implement their 
telework programs. However, we have previously found that 
agencies face challenges related to implementing telework 
programs that align with the key practices. The challenges 
agencies face provide a valuable learning opportunity as we 
look to expand and modify Federal telework programs. Improving 
the mechanics of telework programs can yield benefits to 
agencies, Federal employees, and the public.
    This concludes my prepared remarks. I am happy to answer 
any questions you may have.
    Senator Lankford. Thank you. Mr. Washington.

 TESTIMONY OF KEITH WASHINGTON,\1\ DEPUTY ASSISTANT SECRETARY 
     FOR ADMINISTRATION, U.S. DEPARTMENT OF TRANSPORTATION

    Mr. Washington Chairman Lankford, Ranking Member Sinema, 
and Members of the Subcommittee, thank you for the opportunity 
to discuss Federal telework during the COVID-19 public health 
emergency on behalf of the U.S. Department of Transportation. I 
am Keith Washington, the Deputy Assistant Secretary for 
Administration, and I have been with the Department for 29 
years.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Washington appears in the 
Appendix on page 52.
---------------------------------------------------------------------------
    The Department's longstanding support for and encouragement 
of telework across our widespread operations proved its value 
and stability when we quickly and seamlessly converted 
headquarters and field operations in mid-March to maximum 
telework to meet the COVID-19 public health emergency. Telework 
has been a critical flexibility that enables DOT employees to 
ensure America has the safest, most efficient and modern 
transportation system in the world. It boosts our economic 
productivity and global competitiveness and enhances the 
quality of life in both rural and urban communities.
    Telework allows the Department to achieve important 
performance goals and improve the Department's capability to 
support homeland and national security requirements, all while 
supporting employees' work-life balance outcomes.
    In 2013, well before the onset of COVID-19, DOT implemented 
an agency-wide policy in accordance with the Telework 
Enhancement Act of 2010. The policy encourages the use of 
telework and includes notifying 100 percent of our employees of 
their individual telework eligibility status. That policy 
remains in effect today.
    DOT leaders encourage the use of telework to the maximum 
extent possible while maintaining office coverage and 
consistent operations. To ensure the vitality of DOT's telework 
program, DOT conducts telework exercises to give employees and 
managers opportunities to practice working remotely and to test 
the information technology capacity to support telework. Those 
efforts resulted in additional investments in emerging 
technologies and innovation, including secure virtual private 
networks and virtual desktop infrastructure.
    DOT's transition to maximum telework was virtually seamless 
following the onset of the COVID-19 public health emergency. 
Because of advanced preparations across DOT, monthly Federal 
employee teleworkers increased from about 14,000 in February to 
30,000 in March, without disruption to the agency's mission or 
network.
    Under normal circumstances, typically just under half of 
the DOT total workforce is telework eligible, and about a 
quarter of total employees telework monthly, on average. Since 
the onset of the COVID-19 health emergency, upwards of 60 
percent of the total workforce teleworks monthly. The remaining 
positions are in positions that require their physical presence 
to perform their core responsibilities, such as air traffic 
controllers in the Federal Aviation Administration (FAA), line 
handlers in the St. Lawrence Seaway Development Corporation, 
and merchant mariners in the Maritime Administration.
    Perhaps one of the most viable lessons learned was to use a 
considerable degree of flexibility when leveraging the telework 
policy, work scheduling procedures, and human resources 
flexibilities and authorities. As a result, some offices are 
reviewing plans to reduce their office footprint by eliminating 
leased space and maximizing work and telework once the COVID-19 
public health emergency ends.
    The maximum telework environment has provided DOT with an 
opportunity to test and implement relatively new and various 
methods of communicating with both large and small groups. 
Maximum telework also presented some ongoing challenges, 
including adjusting to new team dynamics and synergy virtually, 
limited access to office supplies and equipment, and 
connectivity issues for some.
    Several months into this new reality, thousands of our 
employees are now teleworking full-time, and managers are 
experiencing how their organizations can function successfully 
under these conditions, providing vital information on future 
decisions about our operations.
    The Department has been successful at implementing maximum 
telework. DOT has a wide array of workforce missions and has 
maintained a consistent level of operations and productivity 
during the health emergency.
    Thank you again for the opportunity to appear before you 
today to discuss Federal telework during the COVID-19 public 
health emergency, on behalf of the Department of 
Transportation. I am happy to answer any questions that you may 
have.
    Senator Lankford. Thank you, Mr. Washington. Ms. Rose.

 TESTIMONY OF SYDNEY T. ROSE,\1\ CHIEF HUMAN CAPITAL OFFICER, 
 OFFICE OF HUMAN RESOURCES, OFFICE OF THE ASSISTANT SECRETARY 
  FOR ADMINISTRATION AND MANAGEMENT, U.S. DEPARTMENT OF LABOR

    Ms. Rose. Chairman Lankford, Ranking Member Sinema, and 
Members of the Subcommittee, thank you for the invitation to 
testify today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Rose appears in the Appendix on 
page 57.
---------------------------------------------------------------------------
    On March 11, 2020, the novel coronavirus disease, was 
declared a pandemic by the World Health Organization (WHO). On 
March 13, 2020, the United States declared the COVID-19 
outbreak a national emergency, and by mid-March 2020, the U.S. 
Department of Labor entered a maximum telework posture due to 
the COVID-19 global pandemic health emergency.
    As it became clear to us that COVID-19's impact would 
require significant modifications to the Department's 
operations, the Office of Human Resources had the tools 
available to support the Department in moving to a maximum 
telework posture, modifying internal guidance as necessary. DOL 
issued HR guidance, increased technical assistance to employees 
and managers, and responded to hundreds of inquiries from 
managers and employees on a full range of human resources 
issues that included pay, leave, benefits, staffing, telework, 
work schedules, and other workplace flexibilities.
    Additionally, DOL rapidly developed guidance related to 
emergency paid sick leave, offered under the Families First 
Coronavirus Response Act, to ensure that our employees who were 
unable to work or telework due to qualifying COVID-19 related 
reasons, as outlined in the regulations, are aware of their 
entitlements under the law.
    In accordance with OPM pandemic guidance, the Department 
allowed telework-eligible employees to telework to the maximum 
extent possible in order to maintain operations as close to 
normal as possible, while ensuring our employees' safety.
    Prior to and during the pandemic, telework eligibility at 
the Department requires that an employee's duties be suitable, 
in whole or in part, for performance at a telework site and 
that individual employees meet the additional criteria required 
by the Telework Enhancement Act, departmental policy, and our 
applicable collective bargaining agreements. Further, 
individual employee participation in telework is subject to 
supervisory approval, based on factors such as the business 
needs of the office, the cost of an arrangement, and the 
availability of technology and equipment required to support 
the duties of the position.
    DOL's recent implementation of enterprise-wide shared 
services for human resources and information technology 
supported and facilitated the Department's ability to quickly 
adapt to a posture of more remote work in response to the 
pandemic. More centralized HR allowed DOL to decisively expand 
the use of telework during the declared pandemic and implement 
any necessary HR policy changes to support those shifts in work 
arrangements.
    Similarly, DOL's implementation of a more centralized IT 
service delivery model allowed the Department to make the 
necessary policy changes and resource investments to ensure 
that DOL was able to adequately support the shift to more 
remote work.
    Telework participation at DOL requires completion of 
interactive telework training, available through the 
Department's internal learning development system. 
Additionally, the Department provides employees with 
supplemental telework resources, available on our intranet, as 
part of a helpful repository of coronavirus guidance and 
resources. The department is presently continuing to use 
telework to ensure its continuity of essential functions and to 
perform the bulk of its day-to-day operations.
    DOL is very proud of its work to implement a robust 
telework policy in response to the pandemic. We believe our 
efforts have helped the Federal workforce to achieve and 
maintain productivity and to serve the Department's mission and 
the American public.
    Thank you again for the opportunity to address the 
Subcommittee about the Department's work, and I look forward to 
answering your questions.
    Senator Lankford. Thank you. Mr. Borland.

TESTIMONY OF JIM BORLAND,\1\ ASSISTANT DEPUTY COMMISSIONER FOR 
SYSTEMS AND DEPUTY CHIEF INFORMATION OFFICER FOR IT OPERATIONS, 
                 SOCIAL SECURITY ADMINISTRATION

    Mr. Borland. Thank you. Good afternoon. Chairman Lankford, 
Ranking Member Sinema, Members of the Subcommittee, thank you 
for inviting me to discuss telework at the Social Security 
Administration. I am Jim Borland, the Assistant Deputy 
Commissioner for Systems and the Deputy Chief Information 
Officer for IT Operations.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Borland appears in the Appendix 
on page 61.
---------------------------------------------------------------------------
    Social Security first began to offer remote work options 
around 20 years ago, when technology was much different and the 
solutions we had today were not widely available. Our online 
services were limited and our work was heavily paper-based.
    Since then, we have made significant progress in 
modernizing our workloads and IT infrastructure. We have 
implemented technology solutions that allowed us to be more 
agile, by replacing desktop computers with laptops, and 
building a virtual private network to improve our business 
continuity. We have also expanded our online presence to make 
it easier for our customers to do business with us without 
having to come into our offices. For our employees, we 
implemented electronic solutions that facilitate virtual and 
telework service environments. For example, technology allows 
employees to answer their office phones through their laptops.
    These decisions were practical, budget conscious, and made 
business sense from a customer service standpoint. When the 
unprecedented COVID-19 pandemic hit earlier this year, those 
decisions supported our ability to keep service going remotely. 
While we closed our offices to the public, we never stopped 
providing service, with over 90 percent of our employees able 
to telework. This maximal telework not only protects our 
employees but also the public we serve, many of whom, by 
definition of the work we do, meet the Centers for Disease 
Control and Prevention (CDC's) high-risk categories.
    Still, we know we can do better. Our goal is to serve the 
public at least as well as we serve them in person, and right 
now that is not possible because not all of our work is 
portable. For example, we need employees onsite to handle 
certain sensitive workloads that require face-to-face 
interviews, and to open mail and scan mailed documents into our 
systems so that teleworking technicians can process them.
    We have been able to find workarounds for some of our in-
person services which has allowed us to address some of the 
challenges of serving the public remotely. We have also been 
flexible with policy. For example, in some cases, we are 
allowing telephone attestation as an alternative way to sign 
documents.
    At SSA, telework is not one size fits all. Some work does 
not inherently lend itself to telework. In non-emergency times, 
different jobs may warrant different amounts of telework, or in 
some cases no telework at all. We also have confirmed that a 
successful continuity of operations plan requires a robust 
telework program built on modernized IT infrastructure, and we 
have been reminded that we have more work to do to establish a 
fully robust telework program based on accountability and 
objective measures. This makes sense for the public we serve 
and our employees.
    The pandemic has delivered a real-time pressure test of our 
capability and it is helping us focus on where we can improve. 
I would like to thank the public, our employees, and you for 
being patient and supportive of us in this national emergency.
    I look forward to answering any questions you may have. 
Thank you.
    Senator Lankford. Jim, thank you very much.
    Senator Sinema and I have a habit in our hearings that we 
hold our questions to the end and we defer to the other Members 
to be able to add questions in. This will be an interesting 
dynamic just for the four witnesses to be able to participate 
in this. You will, at times, some Senators that will call you 
by name or title and will ask you a specific question, and they 
will sometimes be open to anyone who wants to answer it. I 
would encourage those who are joining us remotely to just 
unmute and just jump in if you want to be able to answer a 
question and feel like you are in the room with us as well, to 
be able to participate.
    With that I would recognize Senator Carper for his 
questions.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Can you recognize me with my mask on?
    Senator Lankford. I can.
    Senator Carper. Good. Here we go. Everybody, thanks so much 
for joining us today.
    I wanted to start off with a question of Mr. Borland, and 
this is actually a question, Mr. Borland, that was suggested to 
us by a member of our constituent services team back in 
Delaware. It goes something like this.
    As you know, the Social Security Administration requires 
physical inspection of original personal identification 
documents, such as birth certificates, in order to process 
certain kinds of requests to come in. Due to the pandemic, the 
Social Security Administration is currently asking people to 
send these original documents by mail, so they can undergo 
physical inspection.
    I have heard from a number of our constituents in Delaware 
that are concerned about mailing their original documents, 
specifically about the security of those documents and the 
timeliness for which they are returned.
    Mr. Borland, here is my question. Can you share with us how 
the Social Security Administration is working to address 
concerns of this nature? Thank you.
    Mr. Borland. Thank you, Senator Carper. Let me first say 
that we recognize that the pandemic has produced service 
challenges for us. You are correct. One of the requirements of 
our regulations is that for a new social security card or a 
social security card that reflects changes--name, for 
instance--we do require original documentation and the 
inspection of original documentation.
    We take protecting the integrity of the social security 
card and number very seriously. We do have, in some cases, 
limited ability to set appointments for individuals. Those 
opportunities are limited. We are forced, on a public health 
direction, to limit the number of employees that we have in our 
offices and to limit the numbers of the public that we provide 
in-person service to. Appointments are available for what we 
call the priority cases, and we are fulfilling that 
requirement.
    As I mentioned in my testimony, we do not have a workaround 
for all of our in-person services, and unfortunately the social 
security card is one of those. I also want to say that most 
Americans who need a replacement card can use our My Social 
Security service. They can go online at socialsecurity.gov, set 
up a My Social Security account, and request a no-change 
replacement card fully online.
    Senator Carper. Thank you, Jim.
    Mr. Washington, how many years have you worked at DOT?
    Mr. Washington. Senator, I have worked at the Department of 
Transportation for 29 years.
    Senator Carper. OK. Have you testified before at hearings 
where I was privileged to be in attendance?
    Mr. Washington. Sir, this is my first opportunity to 
testify.
    Senator Carper. How is it going?
    Mr. Washington. So far, so good.
    Senator Carper. When I was Governor, I used to love 
testifying before House and Senate hearings. I hope you enjoy 
this one as much as I did when I was sitting in your seat.
    I was encouraged to learn that the Department of 
Transportation has successfully moved its in-person onboarding 
program to a fully virtual format and that the flexibility of 
virtual onboarding allows more senior leaders to participate in 
the program.
    As you know, in the next couple of months we will have a 
new administration with thousands of new employees serving in 
the Federal Government. Could you take just a moment to explain 
how the Department of Transportation ensures that new employees 
have the resources and support they need to be successful 
during this time? The second half of my question is, do you 
have any recommendations for other agencies across the 
government with regard to newly onboarded employees? It is a 
two-part question, please. Thank you.
    Mr. Washington. Thank you, Senator, for that question. So 
at the onset of the pandemic, we reached out right away, our 
Human Capital Office, to our stakeholders and information 
technology, and we came up with a virtual onboarding 
experience. And as you stated, that really has allowed very 
senior levels of the Department to participate. In fact, we 
have successfully onboarded over 500 new Department of 
Transportation employees across the country, and they have been 
able to hear from the chief of staff. He actually personally 
participates in that virtual onboarding experience every other 
Monday. So that has worked very well.
    Another thing that we have done, recognizing the need that 
many of our employees are working in a remote environment, we 
have assigned a sponsor for all of our new employees so that 
they could really feel part of the team and that they can get 
best practices from, long-serving employees.
    So I think the collaboration between, human capital, our 
stakeholders, and the information technology organization has 
been really integral to rolling out that successful onboarding 
process so our employees across the country are getting that 
experience. So that would be my recommendation for other 
Federal agencies, that collaboration and partnership with the 
various elements of the organization.
    Senator Carper. I agree. Thank you. One last question if I 
can to Ms. Rose, Mr. Washington, and Mr. Borland, that deals 
with agency coordination with the Cybersecurity and 
Infrastructure Security Agency (CISA) over at the Department of 
Homeland Security (DHS). Over the years, a number of my 
colleagues and I worked to give the Department of Homeland 
Security the resources necessary to carry out its cyber mission 
[inaudible]. One agency that I am most proud of with their 
mission, capabilities, and leadership is the Cybersecurity and 
Infrastructure Security Agency at the Department of Homeland 
Security.
    I often say if you want to go fast, go alone, and if you 
want to go far, go together. As I went through each of your 
testimonies I did not see much at all on interagency 
coordination with CISA, which I would presume would be 
incredibly valuable as they provide the cybersecurity tools, 
incident response services, and assessment capabilities to 
safeguard the [inaudible] networks.
    And I ask each of you, starting with Ms. Rose, to describe 
your relationship with CISA, and tell us if more needs to be 
done to improve interagency partnership in the cybersecurity 
space. Let's just start with Ms. Rose, and then Mr. Borland and 
Mr. Washington. Thank you. And if we run out of time, I always 
do. Just be brief.
    Ms. Rose. Oh, I am sorry, Senator. You wanted to start with 
me?
    Senator Carper. Ms. Rose.
    Ms. Rose. Yes. Information technology is not in my 
portfolio. However, I do work very closely with our chief 
information officer to make sure that as we onboard new 
employees and as we equip employees to move into a telework 
environment we are meeting all Federal cybersecurity 
requirements.
    Senator Carper. All right. Let us turn to Mr. Washington. 
Same question. Please describe your relationship with CISA. Is 
there more that needs to be done to improve interagency 
partnership in the cybersecurity space?
    Mr. Washington. Thank you, Senator, for that question. At 
the Department of Transportation we take cybersecurity very 
seriously, and we believe a lot of the investments and the 
coordination and centralization of a lot of our commodity IT, 
sort of centralizing and getting rid of duplicative systems, 
has really put us in a better posture, from a cyber 
perspective. We have promoted annual security awareness 
training, and we give weekly messages, just reminders of 
employees how to operate from a cybersecurity perspective in a 
remote environment.
    We also have issued laptops, DOT-issued laptops, to all of 
our remote employees, and they have security-monitoring 
software on them that alerts the user and DOT cyber officials 
if a threat is detected. We really have not noticed an increase 
in attacks during the pandemic.
    Senator Carper. All right. Thank you. I think my time has 
expired. Mr. Chairman, thank you so much for letting me go over 
time. Thank you. Mr. Borland, to be continued. Thank you.
    Senator Lankford. Thank you, Senator Carper. I am going to 
go next to Senator Sinema for questions.
    Senator Sinema. Thank you so much, Mr. Chairman. First I 
just want to thank our panelists again for their presentations 
today.
    I did note, Mr. Washington and Ms. Rose, in your testimony 
you highlighted a number of successes that your agencies have 
had in expanding telework during the pandemic, which I very 
much appreciated hearing about. I do find it slightly strange, 
though, that your agencies then insisted on you appearing 
before the Committee in person, which I am not sure is quite 
the message we want to send during this time of rising COVID 
cases. So just a thought for you to have as we move forward.
    My first question is for Mr. Borland. Before the pandemic, 
your agency reported it was moving away from telework because 
it could not evaluate the impact of telework on public services 
and did not have the metrics in place to ensure accountability. 
Today your agency is working to put these controls and metrics 
in place, and there are media reports that SSA employees are 
successfully decreasing the backlog of claims while in this 
maximum telework situation.
    So could you tell me, what has SSA learned about telework 
in recent months to cause it to change directions dramatically, 
and how do these learnings inform your decisions moving 
forward?
    Mr. Borland. Thank you for that question, Senator Sinema.
    So as I mentioned in my testimony, at SSA telework is not 
one size fits all. We obviously have a core public service 
function, but that manifests itself in many different kinds of 
work. Prior to the pandemic, we did re-evaluate our telework 
program to focus on accountability and to ensure that we could 
address our public service challenges. I think that we all 
recognize that the Social Security Administration is serving 
the 10,000 Baby Boomers that retire every day. So that is 
claims for Medicare, claims for retirement benefits.
    And public service has always been so very fundamental to 
our mission. So in the re-evaluation of our telework program, 
because we did not have historically adequate metrics, and as 
my colleague from GAO said, an adequate program evaluation, 
each subcomponent of the agency determined telework eligibility 
based on public service needs, the availability of portable 
work, and the ability to ensure accountability.
    Senator Sinema. Thank you. I have a follow-up question for 
you as well. One of the challenges of this pandemic has been 
recognizing that some jobs cannot be done fully or even 
partially through telework. Early in the pandemic, my Arizona 
casework team was fielding calls from constituents who were 
having a hard time getting social security cards replaced at 
their local field offices. Access to online-only services can 
be particularly difficult in rural areas or areas where access 
to a computer is limited.
    So how are you collecting and considering feedback from 
beneficiaries as you review the shift to maximum telework and 
assess these practices moving forward?
    Mr. Borland. Thank you. It is a perfect question to pose to 
me because I am a technology guy, and we are looking at new 
ways to use technology. I mentioned our nonportable work. Our 
nonportable work is not portable because there is not 
technology, or we have not laid in technology to support that. 
It is really one of the lessons learned from trying to serve 
the American public remotely.
    Specifically with regard to social security cards, we are 
looking at the use of technology, at video technology, and the 
ability to rather than inspect physically, for example, 
driver's license, to confirm a driver's license features 
through a data exchange, real time, so that we could use a 
combination of data exchange and video technology to handle 
social security card workloads. The technology is there, but 
until the pandemic, we were not looking at it. We are looking 
at it now very seriously.
    Senator Sinema. Thank you. I appreciate that.
    My next question is for Mrs. Rose. Mine Safety and Health 
Administration inspectors have to be onsite to perform 
inspections, but some portion of their jobs can be done 
remotely. Employees have shared with our Committee that they 
are not being granted permission for partial telework, and even 
more concerning, some employees are not asking their 
supervisors for telework over fears of retaliation.
    So how is DOL working to overcome longstanding prejudice 
against telework so that all employees who are eligible and 
able to perform telework can do so for at least a portion of 
their job, and what mechanisms is DOL using to allow employees 
to request telework and then report concerns about denial of 
telework without fear of retaliation?
    Ms. Rose. Senator Sinema, thank you so much for that 
question. I am very happy to report that 99 percent of DOL 
employees at this time are eligible for telework, and up to 98 
percent of our employees are teleworking almost every day. And 
that does include our mine safety inspectors and our other 
employees who work in the field, performing enforcement and 
inspection duties.
    We have encouraged our mine safety inspectors and our other 
field employees to telework to the maximum extent feasible. 
There are portions of their job that easily translate to a 
remote telework site or to a home site, and other portions of 
their job do require them to continue to remain in the field. 
We make sure that they have personal protective equipment (PPE) 
and they are properly equipped and trained when they have to go 
into public areas to perform inspection and enforcement duties, 
but we are also working very hard to make sure that those 
portions of their job that do not require them to be onsite are 
being done remotely, safely, and with social distancing.
    We meet on a regular, recurring basis with their union 
representatives to discuss their concerns and issues. Our 
Assistant Secretary for Administration and Management is 
meeting on a weekly basis with leadership and representatives 
of our three bargaining units to address the kinds of concerns 
that you are sharing today and to make sure that we have 
solutions and we work collaboratively with the union to craft 
those solutions.
    Senator Sinema. I appreciate that, and we may follow up 
with some of the concerns we have heard from employees as well.
    Ms. Rose. Thank you.
    Senator Sinema. My time is soon to expire but I have one 
last question for Mr. Washington. In May, Transportation's 
chief information officer was quoted in a Federal Times article 
that noted your agency as, ``absolutely seeing an increase in 
productivity,'' across the workforce. So how are you measuring 
these increases in productivity and to what do you attribute 
those increases to?
    Mr. Washington. So thank you so much for that question, 
Senator. We do believe that productivity has increased at the 
Department of Transportation under the remote environment, and 
we are very proud that the Department of Transportation 
employees have risen to the occasion.
    One example, we wanted really metrics for assessing 
productivity, so we did do a survey--to survey our managers, 
and we are proud to report that 55 percent of them felt that 
their work unit was even more effective during the COVID-19 
pandemic. So that is one metric that we used, the survey.
    But also I know when Congress approved the Coronavirus Aid, 
Relief, and Economic Security (CARES) Act, the Federal Transit 
Administration (FTA), they were able to obligate all of the 
funding to the stakeholders, over $24 billion, ahead of the 
statutory deadline. So there are numerous examples of the 
productivity enhancements as a result of the remote environment 
at the Department of Transportation. So we are continuing to 
assess that.
    Senator Sinema. Thank you so much, Mr. Washington.
    Mr. Chairman, I have slightly exceeded my time. I apologize 
and I yield back.
    Senator Lankford. That is not a problem. If you want to do 
a second round as well, Senator Sinema?
    Senator Sinema. Yes, I will. Thank you.
    Senator Lankford. OK. Great. We will make sure that we 
reserve that as well. I know that we have--Senator Rosen is 
joining us in just a moment. Let me ask a few questions until 
Senator Rosen is able to be able to join us remotely as well.
    Ms. Rosenberg, you have been left out in this conversation. 
I do not want you to feel left out on it, but I do want to be 
able to zero in on some of the things that GAO has established. 
Obviously, GAO has looked at this issue of telework for a long 
time. You have submitted to us some of the things that you have 
done in the study, but there is one statement that stuck out to 
me on it. In the statement from GAO, you said this about 
performance management: ``Agencies should also establish 
guidelines to minimize adverse impacts that telework can have 
on non-teleworkers.''
    So provide some clarity for us on agencies should establish 
guidelines to minimize adverse impacts that telework can have 
on non-teleworkers. What did you mean by that?
    Ms. Rosenberg. Thank you, Senator. We do not want to create 
disagreements between those who can telework and those who 
cannot, for example, by forcing those who are in the office to 
take up responsibilities of those that are teleworking, whether 
that means physically moving documents or doing work that 
cannot be done remotely. And so you want to make sure that if 
there are times that someone who is not teleworking needs to 
stand in for someone who is, that there is equity in that, so 
that responsibilities are shared across both those who telework 
and those who do not.
    Senator Lankford. So let me provide a little color to this 
in how I ask you this question. Several years ago, I was 
visiting one of our agencies, and I will leave the agency out 
as I do this. But I was visiting one of our agencies, and it 
happened to be on a Friday, just walking around through the 
cubicle farm in that particular entity and just talking to 
different employees there--How is it going? How is the morale? 
Anything I need to be able to learn and to be able to help 
with?
    In the dialog I heard repetitively, ``It is Friday, so half 
of our people are not here. They are quote/unquote teleworking 
today but I know they are just not working today,'' and they 
were angry. Just about every cubicle I went to, ``I am working 
hard. They took the day off but they say they are quote/unquote 
teleworking.''
    When I read that statement from you from GAO I thought I 
personally heard that, where individuals felt like they were 
carrying the burden. Now in the last several months just about 
everybody across the Federal workforce has been teleworking. 
There has not been an option here, back and forth. But in the 
days ahead we all look forward to the time we have a vaccine 
and we do have that option again. What would you recommend 
here? Because what I was picking up from people that were not 
teleworking was a sense that the people that were teleworking 
were not being held to account, that the same metrics were not 
being used for them for productivity as it was for those who 
were actually in the office, for productivity.
    Ms. Rosenberg. Thank you for that. One of the key practices 
that we emphasize is that the performance appraisal system and 
performance management needs to treat teleworkers and non-
teleworkers the same. They need to be rated on the same 
competencies and judged accordingly.
    I think one of the issues is that telework requires a 
different way of managing staff. As opposed to managing by 
observation, you need to manage by results. We would also 
suggest that someone that you have a performance issue with, 
you are likely to have that performance issue with them 
regardless of whether they are teleworking or in the office.
    And finally, if there are concerns that someone that you 
cannot observe is not working, I would argue that that is not a 
telework issue but that is a trust issue. And again, that goes 
back to holding staff accountable for the results and the 
timeframe and the work product that they are supposed to 
produce, regardless of where they are working.
    Senator Lankford. OK. Thank you. Ms. Rose, I am going to 
ask you a similar question on that. At the Department of Labor, 
are your managers able to hold teleworkers to account, to be 
able to check in on them, evaluate, to be able to have metrics 
performances? This is not new to the Department of Labor. You 
have done telework for a very long time and you have a lot of 
workers that telework some days are in-office some days.
    What authorities does your management have, or I should say 
the opposite, what boundaries do they have in their management 
capabilities in the office versus in telework situations?
    Ms. Rose. Thank you, Senator Lankford. We have worked very 
hard with our managers and supervisors to make sure they feel 
equipped and supported to manage in a virtual environment. As 
you have acknowledged, it is different to supervise someone 
remotely than it is someone that you can see physically 
throughout the work day and check in on periodically.
    We have been able to leverage technology to replicate as 
much of a real-life experience as possible, just as we are 
doing today with a partially virtual hearing. We find that 
works very well. Our performance management system for years at 
DOL has been metrics based, and we really work hard to make 
sure that all employees' performance plans are linked to 
departmental and agency operating plans and contain 
quantifiable measures. I am delighted to report that we just 
completed our 2020 performance year and have noticed no 
appreciable decrease in productivity or achievement against 
those operating plan metrics, the whole time we have been 
teleworking.
    It also is interesting to note--and I think this goes back 
a little bit to perception versus reality--not a day goes by 
that I do not have managers and supervisors tell me how amazed 
and delighted they are at how well 99 percent telework is 
working. I always ask, ``What did you expect?'' and they stop 
and say, ``Well gee, I don't know, but I am just really 
surprised and happy that it is going so well.''
    So the training, the support, and the performance elements 
that we are holding employees to seem to be working.
    Senator Lankford. OK. Mr. Borland, I want to bring you into 
this conversation with Ms. Rose as well. Both of you deal with 
a lot of private information, more so than many other entities 
do. Obviously, every agency does some, but you deal with a lot, 
for both of your entities, not only from your employees dealing 
with that on a laptop that is now in a home environment rather 
than in a more controlled office environment. There are 
personal identifiable information (PII) issues that are there.
    But there is also, as we have mentioned already, which 
Senator Carper and Senator Sinema brought up, there are 
individuals trying to get access to you. I will tell you, Mr. 
Borland, I had the same calls in to my constituent services and 
caseworkers. Those calls have come in saying, ``I am trying to 
get a social security card replaced and I cannot get anyone 
there.'' We have an extra hurdle in Oklahoma that we are still 
trying to be able to get all of our Real ID stuff all worked 
out, and it has made it much more complicated, and physically 
putting documents in the mail and mailing them to you has been 
a challenge. For Department of Labor, I have had individuals 
that have contacted me that said, ``We love the flexibility 
that we have, because we have employees that we have hired 
remotely and we are not having to physically handle their 
documents this year. We are given authority to be able to 
virtually look at their license, virtually look at their birth 
certificate for an I-9.'' And their statement is, ``How do we 
keep that?''
    So there are really two sides of this--the dialogue both 
for the customer, for our taxpayers, to say how can they 
continue to get that kind of flexibility, and for the agency, 
how can they continue to be able to maintain private 
information as private and secure?
    So, Mr. Borland, you are the IT genius in this conversation 
and so I am going to let you take off on this first.
    Mr. Borland. Thank you, Senator. Certainly we do hold as 
custodians some very private information of the American public 
and very valuable information. While telework is not new for 
us, technology does give us opportunities to ensure the 
continued protection of that information.
    First, I think we were one of the first agencies to 
implement a two-factor authentication for our employees and our 
contractors. So we have logical and physical access through our 
personal identity verification cards. Our network monitoring is 
similar to, but not the same as, pre-pandemic. And when I say 
that, when you take a workforce that is connected to the wall 
and immediately swing it to connect it to the Internet, there 
are some specific challenges there. We were able to pivot and 
change the way we do things like scanning for vulnerabilities 
and remediating them.
    We also look at, from a program integrity standpoint, we 
have a longstanding process for monitoring transactions that 
take place within our systems to make sure that no one, 
employees or the public, are misusing the access to the systems 
that they have. Our employees, again, our information security 
policy is very clear. We do not allow bring your own device. 
Employees are not allowed to print at home. We have done 
extensive telework training and cybersecurity training for our 
remote workforce, and we think that has probably improved our 
security posture, although we do certainly have some unique 
challenges in being remote.
    Senator Lankford. Any thoughts that you have for the end 
user, for the taxpayer themselves, and their use of digital 
items to be able to submit. Are there statutory limitations of 
that or is it just technology limitations?
    Mr. Borland. There are some limitations, some regulatory, 
but technology can overcome some of those challenges. As I 
mentioned in my response to Senator Sinema's question, we are 
looking at how we can use data exchanges to verify identity 
documents so that they do not have to be physically produced.
    Senator Lankford. Ms. Rose, do you want to make a comment 
on this, as far as protecting private information, and then 
also giving the flexibility to individuals to be able to submit 
their information?
    Ms. Rose. Yes. Thank you, Senator Lankford. We have 
implemented many of these same security protocols that the 
Social Security Administration has in place. We are using 
personal information verification (PIV) for multi-factor 
authentication. We do not permit sensitive data to be accessed 
on anything but government-provided DOL computers, and people 
must use RSA tokens to log into our network. So we feel that we 
have an environment, and we work closely with our colleagues in 
the Information Technology Office to make sure that environment 
stays safe and secure.
    We have onboarded over 1,000 people now virtually since the 
pandemic started, and we have gotten extremely positive 
feedback from all of the users, the people who are being 
onboarded, the supervisors and managers who are welcoming new 
employees in. A lot of people have commented on the facility 
and ease of the application and onboarding process, because we 
have converted all of those paper-based forms and processes to 
the computer. And we have done away with wet signature 
everywhere we can. We are using digital signatures now. We 
provide the oath of office virtually. We will probably continue 
that process, with lessons learned, beyond the pandemic. It has 
been so successful and it has made face-to-face contact with 
people who are remotely duty-stationed much more effective and 
vibrant.
    Senator Lankford. OK. We are going to come back to that as 
well. I want to recognize Senator Sinema for a second round of 
questions.
    Senator Sinema. Thank you, Mr. Chairman.
    Ms. Rosenberg, one thing I have noticed regarding Federal 
telework policies is that they vary based across agencies, and 
even sometimes within offices inside agencies. So it makes it 
pretty confusing for Federal employees and challenging for 
Congress to track.
    Are there recommendations that you would make to Congress 
to better standardize agency policies and the tracking of those 
policies as we look at telework in a post-pandemic world?
    Ms. Rosenberg. Thank you, Senator. That is a very good 
question.
    So one of our key practices is that eligibility be based 
on--approved on--an equitable basis, and that the criteria be 
things such as the suitability of tasks to the remote 
environment and employee performance. So I think the key is to 
ensure that agencies have concrete eligibility criteria that 
are based on those types of things and that are applied 
consistently across the agency.
    I would say that it would make sense that there would be 
some variation among agencies since their missions differ and 
the type of work differs, and, of course, some positions are 
less suitable for remote or telework than others.
    Senator Sinema. Thank you. Ms. Rose, given the broad 
success of telework during the pandemic, how are you 
approaching plans to move employees back onsite once this 
public health emergency is over, and what data are you 
examining to ensure that onsite work is safe and essential?
    Ms. Rose. We have worked very hard and long, Senator 
Sinema, on our reconstitution plans, our reopening plans, as it 
were. We will take a phased approach. We will follow State and 
local guidelines in doing that and follow the government-
prescribed gating criteria to bring people back.
    We have already put safety procedures and protocols in 
place in all of our government office space, things that 
include the wearing of masks in public and common spaces. We 
have put in Plexiglas barriers and shields so that people who 
face the public in the office are protected, and the public is 
protected. We have set up seating schematics so that people in 
cubicle farms are not working on top of each other or directly 
next to each other. So we will continue to leverage telework 
with an onsite presence in order to maximize social distancing 
in what traditionally have been fairly close working spaces, 
with cubicles, and the movement away from traditional four-wall 
offices.
    So we have gotten a lot of information about safety and 
security out to our workforce already. Everything is posted on 
our Intranet. We will continue to work with our labor unions 
and our employees as we move back into a more traditional work 
posture, to make sure people feel safe, secure, and protected, 
and, in fact, are safe, secure, and protected.
    Senator Sinema. Thank you. Another question for you. Your 
agency is unique in that not only were you transitioning your 
own employees to maximum telework but you were also releasing 
guidance to the nation's broader labor force about telework 
policies and best practices. I realize that private sector 
guidance is not your area of expertise, but I would like to 
follow up with your agency on this topic.
    Ms. Rose. Yes. Guidance on telework external to the Federal 
Government has been provided, it is my understanding, by our 
Wage and Hour Division, and we would be happy to get you that 
information.
    Senator Sinema. I appreciate that. Now focusing on the 
Department of Labor's workforce, can you share any instances 
where work you initially thought had to be done in an office 
space ended up being compatible with telework? Are any of these 
instances relative to changing Labor's view of determining 
telework eligibility?
    Ms. Rose. We had a higher percentage of the people whose 
jobs were not considered telework eligible under the Telework 
Enhancement Act prior to the pandemic, and our managers and 
supervisors have worked to see how those positions can be 
reformatted, how duties and responsibilities can be 
reallocated, and how technology can be leveraged, for example, 
using data on forms that used to be paper that have now been 
converted to digital so that we could send more of our 
employees home to work during the pandemic.
    We have very few jobs that require an in-office, onsite 
presence, jobs like receptionist, jobs like mail clerk, jobs 
like building engineer. And even with those positions we have 
tried to find duties and responsibilities that are discrete and 
unique and compatible to moving into a remote work environment, 
even if it is part-time.
    Senator Sinema. Thank you.
    Mr. Washington, in your testimony you noted that your 
agency was considering a new remote work policy before the 
pandemic. Looking ahead, I think as we all are, to a non-
pandemic situation, what advantages will a robust remote work 
policy bring to your agency, and what barriers do you foresee 
in implementing such a policy?
    Mr. Washington. So thank you, Senator, for that question. 
We were considering, even prior to the pandemic, a remote 
policy, and we are continuing to assess that. But one of the 
rationales for it was to help us with the ability to recruit 
and retain talent. And what we found, particularly in the 
national capital area where we compete for HR specialists and 
acquisition specialists among each other--I see my colleague at 
Labor nodding her head--that has been a challenge. So we are 
hoping that if we can broaden the applicant pool nationwide 
that we can really recruit and retain employees at a better 
rate, so that it will really improve our attrition.
    So that is our rationale. We are continuing to assess that. 
We have learned a lot over the last few months. So we tried to 
make that business case before going forward with our remote 
policy. We are benchmarking with the private sector and our 
stakeholders and counterparts at other Federal agencies as 
well.
    Senator Sinema. Thank you. Mr. Chairman, that concludes my 
round of questioning, and thank you for holding this hearing 
again. I have learned so much.
    Senator Lankford. Thank you. Thanks for your participation 
in the hearing as well and your engagement on this.
    Mr. Washington, I want to continue to press this, and 
actually I want to talk to all four of you on this one issue, 
and it is about hiring. It is a shift in perspective, because 
many of the telework individuals are really people that are 
connected to the office and they telework 1 day a week, 2 days 
a week, 3 days a week, but they are in the office, or maybe 
they are in the office once a month or whatever it may be. But 
there is a physical connection here.
    There is a paradigm shift in the conversation to say we 
have now learned that we cannot only telework 5 days a week but 
we can do that month after month after month, and it begs the 
basic question, why couldn't you hire someone in Oklahoma to be 
able to do a task for an agency that is based in Washington, 
DC.? What is the difference between Washington, DC, Northern 
Virginia, Oklahoma, and Arizona for actually bringing people on 
board? And the practical answer is there is not one.
    It also brings up a significant job opportunity to, let's 
say, spouses of our military, which often are working in very 
remote areas. By definition a base or post is very far from 
another area and there are very few jobs available. But they 
could work at Department of Transportation in a telework 
situation even if they are in beautiful, fabulous Altus, 
Oklahoma, where there are not as many jobs available in that 
area, because it is a remote training area.
    So that is whether you are Border Patrol and you are 
assigned to the Northern Border in North Dakota, in a remote 
area, and you are a spouse and you do not have any options, or 
whether you are a military spouse or whatever it may be. This 
opens up a lot of options for those spouses, to be able to help 
those other Federal families, not to mention a lot of other 
people that want to work in other areas.
    So I want to drill down, and be as specific as you can. 
What would prohibit you, either in the regulatory space or the 
statutory requirements, or just in practical engagement, from 
not hiring people that you literally never plan to meet, or if 
you do plan to meet it may be an annual meeting at some point 
in the future. But you are talking about onboarding, 
supervising, working at a distance, with no intention that they 
will drive in once a week, to be able to ever connect with the 
office on that. What would prohibit that?
    So Mr. Washington, you are first.
    Mr. Washington. Thank you so much for your comments, and 
that is so interesting that you mention military spouses 
because I just had that conversation with a colleagues a couple 
of weeks ago. Because, with a lot of military spouses you bring 
the person on board, you train them, they are an excellent 
employee, and then the veteran is deployed somewhere, and you 
do not want to lose your investment.
    So we have been flexible, even pre-pandemic, at the 
Department of Transportation, with allowing employees to 
transition and work remotely. We are hoping, as a result of a 
lot of our lessons learned from the health emergency that 
managers would be more receptive.
    I think it is more of a culture change, and we are 
compiling a lot of the data, assessing metrics, to build that 
business case to have a more rigorous remote work policy. But I 
think a lot of it is culture change.
    Senator Lankford. So there is not anything regulatory or 
statutory right now that you could not do that today. Or let's 
say we are post pandemic, that you could not do that in just a 
decision you want to make?
    Mr. Washington. I am not aware of regulatory or statutory 
barriers. In fact, there could be cost savings. I mean, if the 
employee is working in Oklahoma or a rural area where the cost 
of living and the locality pay is cheaper, there could actually 
be cost savings associated with that.
    Senator Lankford. That is correct. I would think the exact 
same thing. I am grateful to say that Oklahoma has a much lower 
cost of living than Northern Virginia, so hiring people out of 
Northern Virginia rather than hiring people out of Oklahoma or 
so many other great States around the country, there is a cost 
savings there, and plus there is a ready workforce that may be 
interested in being able to take that on and another group of 
people you could recruit from.
    Ms. Rose, talk about this on the hiring side of this. Why 
wouldn't that work and what are the barriers that you see?
    Ms. Rose. It absolutely would work, and it does work. We 
had already started making that shift at the Labor Department 
just as the Transportation Department has. It was a paradigm 
shift for some of our managers and supervisors who now had 
their eureka moment, like, this is working really well and now, 
suddenly, I have an applicant pool that is the entire United 
States, not just the Washington, DC. metro area.
    We are routinely announcing jobs at this time for all 
locations, no longer just a Washington, DC. duty station or a 
Chicago, Illinois duty station, but considering everyone in the 
country. In the Office of Human Resources itself, about a third 
of my staff is 100 percent remote telework, and that will 
continue permanently beyond the pandemic, because of where they 
are located and where they are working.
    I just had an employee in my office whose husband was 
posted to Germany, and she was going to accompany him to 
Frankfurt, obviously. She is still working for us, I am happy 
to report, and will continue to work for me full-time for his 
entire 3-year assignment in Germany.
    It is the best, and we have found that employees outside 
the Washington, DC. area stay longer. They are happy to stay 
working with the agency that recruited them and hired them. 
Employment in the government in Washington tends to be a 
revolving door, and we just steal people from each other, and 
it goes around and around and around. I am delighted that we 
can now access a much bigger applicant pool of very qualified 
people.
    Senator Lankford. OK. Thank you. Mr. Borland?
    Mr. Borland. Thank you, Senator. I think looking across 
government we know that the Patent and Trademark Office has 
been doing this for years, and so I do not believe there are 
any regulatory or statutory barriers to permanently out-
stationing or having kind of work-from-anywhere situation.
    I think that we have learned, at Social Security, that 
whether it be provisioning security credentials, laptops or 
cellphones, providing training, that work can be done remotely. 
The workforce can be remote. We have been addressing 
challenges, public service challenges on our 800 number, and we 
have new 800 number agents that received all of their 
equipment, their security credentials, their onboarding, their 
orientation, and their training remotely, and they are working 
from home.
    Senator Lankford. Ms. Rosenberg, let me refine this 
question, not only just for your agency as well, but 
Washington, DC. is one of the most expensive real estate areas 
in the country. Is there a potential that this could be a cost-
savings issue that agencies could, if they worked through the 
process, determine I do not need as big of a footprint here in 
Washington, DC. to be able to hire on people, knowing I am 
going to assume I am going to add 25 percent or 20 percent or 
40 percent, whatever the number is, agency to agency, that 
could be hired anywhere in the world, at this point from any 
American citizens? Is that something that you would see that 
would be a change and shift here in D.C. as well, in how we 
actually manage things? I know that is much a General Services 
Administration (GSA) question, but I have GAO in front of me 
rather than GSA right now, so I am asking you first.
    Ms. Rosenberg. I think there is certainly the potential for 
cost savings, I think in two ways. One is that individual 
salaries are based on their official duty station, and if their 
official duty station is their home or a telework location that 
is in a less-expensive area, then salaries could be reduced. 
And it also could mean savings for agencies in terms of space. 
I know when GAO moved to expanded telework it enabled us to 
reduce our footprints, both in our regional offices and reduced 
the amount of leased space, as well as in our headquarters 
building. It enabled us to rent out parts of our headquarters 
building to other agencies since we had less people who needed 
physical space in the building.
    Senator Lankford. Senator Rosen, I see that you are there 
now as well. I would love for you to be able to join in the 
conversation, and let me open this up to you for questions.

               OPENING STATEMENT OF SENATOR ROSEN

    Senator Rosen. Thank you, Senator Lankford. I am really 
happy that you have held the second hearing on telework because 
really our Federal workforce, particularly how they are coping 
with the stresses of the pandemic, but they still have to 
deliver the services that everyone needs, and deliver them out 
to the American people in the way that is best. So I am really 
glad we are coming together in a bipartisan way to figure out 
how we do this.
    I want to talk a little bit about cybersecurity, because 
with millions of Federal and private sector workers navigating 
the transition from an office environment to their home, 
obviously because of COVID-19, maintaining cybersecurity while 
teleworking, it is imperative for our national security, 
really. Small organizations, in particular, face challenges 
like resource constraints and protecting themselves from 
increasingly sophisticated cyber threats like ransomware. We 
know how destructive that can be and how frightening that is 
for companies when that happens, or agencies.
    So to address this vulnerability, just this very afternoon 
I introduced bipartisan legislation, along with Senator Moran, 
that requires CISA, in coordination with the Federal Trade 
Commission (FTC), to publish a network of telework-related 
cybersecurity best practices for small organizations, including 
small businesses, nonprofits, and small governmental 
jurisdictions. Those could be our school districts, and we have 
had issues with ransomware attacks on school districts, of 
course, in my State, and I know across the country.
    However, even large Federal agencies are facing 
unprecedented cybersecurity challenges now that, like you say, 
the majority of your workforces are working virtually. Ms. 
Rosenberg, can you tell us what you assess to be the most 
significant and most prevalent challenges Federal agencies may 
be facing when they are implementing telework-related 
cybersecurity practices? And you know that National Institute 
of Standards and Technology (NIST) and CISA, we have put out 
guidelines and done a lot of work on that. How can we assure 
that those best practices are reaching particularly our Federal 
workforce?
    Ms. Rosenberg. Thank you, Senator Rosen. What I could say 
to you is that we have ongoing work. Our information technology 
and cybersecurity team has initiated work that is looking at 
what selective Federal agencies experiences have been in 
implement IT telework solutions in response to the pandemic, 
and to what extent the selected agencies addressed Federal 
information security guidance when implementing those 
solutions. That work is still in its initial phases, but the 
team expects to issue something this summer.
    Senator Rosen. Thank you. Anyone else want to talk about 
the cybersecurity practices and the challenges you have had, or 
how we can help best respond and overcome those cybersecurity 
challenges, as you are protecting, obviously, personal 
information, particularly our Social Security Administration.
    Mr. Borland. Senator Rosen, if I may, I am Jim Borland from 
the Social Security Administration. Thank you for that 
question. I want to emphasize, and getting back to something 
that Senator Carper said earlier, that our agency has a very 
close and productive working relationship with CISA. Obviously, 
cybersecurity is of critical importance to the American public 
when it comes to protecting their personal information, and 
Social Security has one of the largest repositories of that 
information in government.
    We have found the concept of having CISA to be so 
incredibly helpful, because they have the ability to do threat 
assessment and intelligence gathering, that even as a large 
Federal agency, would take many resources and would be 
duplicative. So when we get a binding operational directive 
from CISA, we know that it has been thoroughly researched, it 
is a real threat. They give us advice as to what to do, and our 
role is just to get it done. And so in that regard the advice, 
the direction that we get from CISA really has a major role to 
play in improving and sustaining strong cybersecurity posture.
    Senator Rosen. That is fantastic. I cannot see everyone 
there, if there is anyone else that wants to respond to that. 
Otherwise I do have one other question in my remaining time. Of 
course, as we know, the general public, they are depending on 
our Federal agencies for our vital services, our social 
security checks, like you say, our VA benefits, so many things 
that they are going to benefit all of us in the long run, and 
maintenance of our public lands even.
    So particularly at the time when reliable information about 
public health and safety is so important, we have to have the 
public trust our Federal agencies to offer fast services and 
accurate responses. So anyone who would like to address this, 
can you talk about how you have met the pandemic's challenges 
in terms of providing public services, customer service, 
especially that aspect of your agency's mission, as you are 
missing out on some of the face-to-face. What kind of 
adaptations did you have to make, and really, I know there are 
benefits but what are we missing or what can we help you do 
better, because some things do get lost in translation when you 
are maybe just on the phone.
    So maybe Mr. Borland, if you want to speak about that.
    Mr. Borland. Thank you, Senator. I would be happy to. So 
when the pandemic was declared by the World Health 
Organization, we pretty quickly swung to maximum telework, but 
we also made the decision to close our offices. As I mentioned 
in my opening remarks, we serve a population that is 
particularly vulnerable to COVID-19; and because of the nature 
of the work that we are doing [audio difficulties-inaudible] 
across America. You need to protect not only employees but the 
public.
    We made the decision to close our offices, but we swung 
immediately to a public information campaign to make sure that 
local communities knew that while our physical buildings were 
closed that our employees were working, that they could be 
reached at the phone number for their local Social Security 
Office, and if you have a claims representative that you worked 
with at that office you can reach that claims representative.
    Our 800-number service had some different challenges, ones 
that we were able to overcome pretty quickly. We had a 
situation where we have a legacy telephone platform, and only 
25 percent of our employees that work in our teleservice 
centers were equipped to telework. We quickly re-engineered a 
solution that would allow the 800-number employees to use the 
system that is used in our field offices, so we could quickly 
telework-enable all of our 800-number agents.
    I am happy to say we just ended our fiscal year (FY), and 
we met our average speed of answer goal for our 800 number. It 
is not as low as we want it to be and we are going to keep 
working hard to continue to provide better service to the 
public.
    Senator Rosen. Thank you. I know my time is just about up, 
but I know it is always--speaking from my own experience, 
whenever you try to do something with customer service it is 
nice to be able to get to a person. And then if you have to 
call back again, particularly with some things with social 
security perhaps, that the ability to have continuity with the 
same person is really important in resolving a case without 
having to revisit it and re-litigate it, and satisfaction for 
everyone.
    So I appreciate it and I yield back my time. Thank you, 
Senator Lankford.
    Senator Lankford. Senator Rosen, thank you.
    I do want to ask a couple more questions here. Ms. Rose, 
you talked before about onboarding and those lessons learned. 
Obviously, that is one of the challenges that we have all 
discussed. It is a very different dynamic onboarding someone 
you have never met, your manager is not interacting with on a 
daily basis, and the challenge that you have typically when you 
land in the middle, as you and I have both said, the cubicle 
farm, and you do not know how to fill out a certain form or to 
be able to do a certain process, you turn to the person next to 
you and they kind of help you through that.
    You do not have that at this point when you are working 
remotely. You do not know the people that you work around. You 
do not know who else to be able to call on the team that is 
also doing this same job, to be able to help you in the 
process. You do not even know your manager and your manager 
does not know you.
    So what lessons have you learned at this point, and I would 
be interested in any of the other of the three of you, if you 
have specific ideas on this issue about onboarding, mentoring, 
helping people in the earliest days to be able to be a 
productive, valued part of a team, what lessons you have 
learned in this. Because if we are going to start hiring people 
no matter where they live, then we are going to have to take 
what we learned during this time period and to be able to 
accelerate that in a broader perspective.
    So anyone can answer that question. If you have additional 
insight, jump in. But I would like Ms. Rose to go first.
    Ms. Rose. Thank you, Senator Lankford. That is such an 
important point and it is a vital lesson learned. We knew very 
early on that we would have to stay very engaged with our 
employees if we are not going to be physically co-located with 
them. We have provided training to managers and supervisors on 
how to manage and supervise in a virtual environment, and quite 
frankly, we have really leveraged information technology to 
every extent possible to try to replicate a real-time, face-to-
face experience for our employees and for our supervisors. So 
we are using programs like Teams and Skype so that people can 
have conversations in person, digitally, and see one another, 
because that really makes a difference in getting to know 
someone.
    We have also tried to replicate some of our morale-boosting 
experiences in a virtual environment. We are going to launch 
our Secretary's Honor Award ceremony tomorrow, and it is going 
to be conducted completely virtually, but it will be streamed 
out so that all of our employees can participate and send 
congratulations to their colleagues, just as they would if we 
were having the ceremony in our auditorium.
    It takes a lot of effort and you have to rethink the way 
you do things, but technology has given us the ability to be 
almost as good as being there if we try and we use it.
    Senator Lankford. OK. So can I ask just a follow-up 
question on that as well?
    Ms. Rose. Sure.
    Senator Lankford. As you are gathering all this information 
and these ideas and you have new training modules and 
everything else, are the CHCOs sharing that with each other or 
is every agency kind of developing their own structure, their 
own idea, because everyone is ramping up through this time 
period? How much collaboration is there agency to agency to 
say, we have found this module to be really good for training 
new employees, we have found this to be really good for 
onboarding, we have found this metric to be really good for 
measuring performance and evaluating this in the remote 
setting.
    So I am just asking the question, is collaboration 
happening at this point, at what level? I am not expecting us 
to be perfect at this yet because we all trying to figure it 
out. But has that started, and if so, what does it look like?
    Ms. Rose. I am pleased to report it has started. We have 
weekly CHCO collaborative calls that all of the Executive 
Branch agencies participate in. We have not done as much 
sharing of lessons learned as I think we will coming out of 
this, because as you have acknowledged, we are still kind of in 
the thick of it. And we talk to each other on a case-by-case, 
individual basis. We know each other. It is a small community, 
and the collaboration vehicle is there for us to make more use 
of it as we gain more experience and have time to share lessons 
learned.
    Senator Lankford. OK. That would be very helpful. And if we 
can participate in that, we want to be able to help in that 
process. Senator Sinema and I are very engaged in this, along 
with the rest of our Committee. What I do not want to have is a 
contractor pull together a really good training module and sell 
it to you, and sell it to you, and sell it to you, and to you, 
and suddenly the taxpayer is not getting good bang for the buck 
because one contractor created something that is really good 
and now they are selling it all over the place to everyone, 
when we could actually buy that license once and use it 
governmentwide if we choose to on that.
    OK. Mr. Washington, do you have anything to add to this?
    Mr. Washington. The one additional thing I would add is 
that we have identified a sponsor for any new staff, I mean, 
even before they come on board, so they could have that as a 
resource that they could reach out to. And the sharing of best 
practices and the collaboration, that has really been integral 
to our success at the Department of Transportation. I mean, we 
have 54,000 employees all over the country, so when the 
pandemic hit we started weekly meetings with our HR directors, 
and they were able to raise challenges and talk about best 
practices. So that has been very integral to our success.
    Senator Lankford. OK. Mr. Borland, do you have anything you 
want to add?
    Mr. Borland. It is a technology solution that we found to 
be particularly helpful, but a pretty rudimentary one, and it 
is persistent chatrooms. In other words, giving folks kind of 
that water cooler place to check in during the day, to ask 
questions, to touch base. We have found it to be very effective 
in keeping those connections that we are all used to from our 
physical work space and perpetuating them.
    We also make widespread use of video teleconferencing, for 
meetings. I think many people have forgotten how to use their 
telephones because they are so used to just clicking on someone 
and calling them.
    So there is lots of great technology out there, but the 
important part of the use of the technology is the human aspect 
of it. It is that human connection. That is why we are moving 
toward video as well as audio, to make that human connection. 
We have all been isolated a long time, and it is frankly really 
good to see my colleagues from time to time.
    Senator Lankford. You know what? I cannot begin to tell you 
the number of times I have heard, in the last few months, when 
I ran into someone in person at some spot, that their first 
response is, ``It is so nice to see a person.'' And so I get 
that.
    Ms. Rosenberg, anything that you want to be able to add to 
this as well?
    Ms. Rosenberg. I would certainly echo the sentiments that 
my colleagues made, that maintaining that social connectedness 
and being creative in the way you do it is very important.
    I think the one thing I would add is that as part of this 
continuing communication is that employees' needs change over 
time, and so you need to adapt as the employees' needs are 
changing. I think we have certainly learned that as the 
pandemic has lasted longer than I think any of us had hoped, 
that we have had to adjust the types of resources we provide to 
staff and how we outreach to them as the situations that they 
are facing change.
    Senator Lankford. I appreciate that very much, and you are 
right. This has lasted much longer than any of us had thought 
or hoped. I distinctly remember conversations in early March 
saying by Easter, and then we would fill in the blank after 
that. We did not realize it was Easter 2021. But it is just the 
reality of where we are today.
    I have about 9 hours more of questions for each of you, but 
you will all be glad to know that a vote has been called and so 
I am not going to be able to do 9 hours more of questions with 
you. But I very much appreciate your insight.
    Let me ask one favor of all of you. As you work through 
this process you are going to bump into regulations and the 
statutory prohibitions of things that you think, this really 
needs to be done. This is the Committee that will work on those 
things. So when you run into the statutory problems and issues, 
or regulatory issues, would you please make sure you actually 
share them with us and not assume that Congress does not care 
to hear this. We do. We are just not doing the same thing you 
are doing all day, every day. We are not going to see it at the 
same level you are.
    So when you see those statutory barriers, or you see a 
regulatory issue that needs to be addressed, please make sure 
you share it back with our Committee. We are going to continue 
to be able to work on this, because this is a paradigm shift 
for how we work as the Federal Government. We are opening up a 
much larger pool of individuals that are eligible to be able to 
work with us, and with greater flexibility on some of the tasks 
that we have.
    We will always have in-person, and we should always be here 
in Washington, DC, with our agency heads and all of those 
things, to be able to interact for those face-to-face meetings 
that need to occur. But we have millions of people around the 
country that would love to be able to serve their country by 
serving in one of these agencies, and I would love for them to 
be able to have the opportunity to be able to do that as well, 
and to be able to compete, to end up on someone's list as the 
well-qualified candidate that happens to live in Altus, 
Oklahoma, and they get the opportunity to be able to compete 
for those tasks as well.
    I look forward to ongoing dialogue about these issues, and 
please make sure that you continue to be able to keep that 
communication going with our team, as we are pulling together 
different ideas. Senator Sinema and I have already started the 
conversation about legislation that may be needed or helpful in 
this process as well. But as you have ideas, and your 
legislative team has ideas, please make sure those actually get 
shared with us on a timely basis.
    That concludes today's hearing. I am very grateful, again, 
for the witnesses that are here and for the time that you have 
been able to share with us, all four of you. Thank you for 
that.
    The hearing record will remain open for 15 days until the 
close of business on Thursday, December 3rd, which it is hard 
to believe 15 days from now we are into December, but we are. 
That will be for the submission of statements and questions for 
the record.
    Thank you again very much for your continued service, as 
you have done for a very long time, and we look forward to 
getting the chance to be able to work together on this. This 
hearing is adjourned.
    [Whereupon, at 4:45 p.m., the Subcommittee was adjourned.]

                            A P P E N D I X

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

                                 [all]
</pre></body></html>
